April 22, 2011

JO ANN FEINDT
VICE PRESIDENT, OPERATIONS, GREAT LAKES AREA

SUBJECT: Audit Report – Facility Optimization: Great Lakes Area
        (Report Number DA-AR-11-005)

This report presents the results of our audit of facility optimization in the Great Lakes
Area (Project Number 11YG001DA000). The U.S. Postal Service Office of Inspector
General (OIG) initiated this audit from a random sample of districts nationwide. For the
Great Lakes Area, our objective was to identify opportunities to optimize existing real
estate in the Greater Michigan District. See Appendix A for additional information about
this audit.

The Greater Michigan District uses 552 facilities with over 3.1 million interior square feet
(SF). While the area employs these facilities, it has experienced a significant reduction
in workload in recent years. From fiscal years (FYs) 2005 to 2010, mail volume in the
Great Lakes Area has dropped 24 percent. This reduction in workload provides an
opportunity to reevaluate space needs and identify potential excess space.

Conclusion

The Greater Michigan District has over 700,000 SF in excess of what their workload
suggests they need. The U.S. Postal Service has the option to optimize excess real
estate property through:

       Disposal – selling property.
       Outleasing – leasing owned property.
       Subleasing/Reassignment – reassigning leased property.
       Development – investing in real estate projects.

With two major efforts underway, the Postal Service has begun taking action to optimize
existing space. Specifically, the Great Lakes Area plans to dispose of 69,798 SF of
excess space through approved optimization projects, with another seven facilities
scheduled for evaluation in FY 2011. Although it has made progress, the Postal Service
can do more to dispose of excess interior space more quickly.
Facility Optimization: Great Lakes Area                                                                 DA-AR-11-005



The opportunity to optimize excess interior space in the reviewed districts exists
because:

         Postal Service policy requires installation heads to report excess space, but does
         not provide the necessary guidance to effectively accomplish this task.

         The excess space reporting system does not track metrics such as dates or
         space conditions to allow for prioritizing disposal actions.

We estimate that if the Great Lakes Area initiates disposal1 action for the excess space
we identified in the Greater Michigan District, there is an opportunity to realize
$19,977,5192 over typical and remaining lease terms. We consider this amount to be
funds put to better use.3 See Appendix B for our detailed analysis of this topic and
Appendix C for our calculation of monetary impact.

Our audit also noted that the Great Lakes Area could be more aggressive in seeking
opportunities to fill the space needs of federal entities. In the district reviewed, our
analysis shows that excess space identified at Postal Service facilities may be able to
accommodate 85 percent of current federal agencies’ space needs. This opportunity
exists because the Postal Service has not capitalized on the priority status it has for
filling federal agencies’ space needs. By capitalizing on this status, the Postal Service
has another option for reducing its facility infrastructure size and generating additional
revenue. See Appendix D for more information.

We recommend the vice president, Operations, Great Lakes Area; district managers;
area managers; and the Great Lakes Facility Service Office manager work in
coordination to:

1. Clarify procedures for reporting excess space.

2. Initiate disposal actions for excess space identified.

3. Pursue opportunities with federal agencies as an option to optimize excess property.




1
  Disposal actions available include sale, termination of lease, consolidation, and/or subleasing. At a minimum, the
Postal Service can out-lease or initiate a sublet action for owned or leased property, respectively.
2
  Annualized savings is $1,997,751.
3
  Funds that could be used more efficiently by implementing recommended actions. This amount does not include
excess square footage that is part of an approved node study.


                                                           2
Facility Optimization: Great Lakes Area                                            DA-AR-11-005



Management’s Comments

Management agreed with our recommendations. They stated they have put in place
corrective actions to address the first two recommendations and will complete corrective
action to address the third recommendation by the end of Q3, FY 2011. While
management agreed with our recommendations, management did not agree with the
amount of excess space or the potential monetary impact reported. Specifically, they
disagreed with the method we used to calculate existing excess space, in addition to the
data and cost factors used to value the excess space and calculate the monetary
impact.

In reference to the level of excess space reported, management conveyed that our
methodology does not include allowances for:

    1. Unusable space such as basements and corridors. The audit treats every square
       foot as usable and leasable.

    2. Unique operational functions not included in standard designs, such as
       administrative, district office, training, caller service, etc.

    3. Inefficiencies in current building layout due to multiple floors, stairs, elevators,
       columns, redundant support space required on each floor due to code
       requirements.

    4. Historic property.

    5. Parking and dock space requirements.

    6. Large inflexible retail lobbies.

In reference to the data and cost factors used in our calculations, management
disagreed with the findings in general as stated in responses to prior audits.
Management specifically disagreed with the average build-out cost used in our
calculations, citing a range of costs they deem reasonable based on actual project
costs.

As such, management believes the accurate way to calculate monetary impact is by
multiplying useable excess space by sublease value less conversion cost. This
calculated outcome should then be adjusted for maintenance and utility savings.

Finally, management expressed the challenges facing the Postal Service when
disposing property in poor market conditions and actions they have already taken to
reduce excess property. In particular, management has focused its attention on
properties that have more than 10,000 interior square feet which represents 16 percent
of buildings and 76 percent of interior square feet. This allows the Postal Service to
capture the largest opportunities for excess space that is usable. See Appendix E for
management’s comments in their entirety.


                                               3
Facility Optimization: Great Lakes Area                                          DA-AR-11-005




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the audit report.
With respect to the methodology used to calculate excess space, we did not determine
whether the excess space identified was usable, in part because Postal Service
systems do not identify usable areas. We agree that realty management policies and
systems need to be updated to define usable areas. According to commercial realty
standards, 4 usable areas are generally measured from “paint to paint” inside the
permanent walls to the middle of partitions. No deductions are made for columns and
projections necessary to the building. Our calculations reflect these standards.

As it relates to the usability of basements, we note that Postal Service Headquarters
and many federal agency buildings use basement space. According to commercial
realty standards, basement space is counted as usable and leasable areas. Mechanical
rooms are considered common areas which a proportionate share is allocated to a
tenant’s area. We did not include allowances for existing functions, building layout
inefficiencies, and inflexible spaces because the Postal Service’s current space
standards did not specify these allowances. Our audit focused on interior excess space,
and thus, enclosed parking and dock spaces were outside the scope of the audit.

Management also conveyed that we did not consider the historic nature of buildings and
the challenges or costs associated with making changes to these buildings. While we
agree that there are properties of the Postal Service that are historic in nature, we do
not feel this has a large impact in the presentation of our results. The number of eligible
historic buildings listed in the Postal Service’s systems account for less than 1 percent
of their properties. Also, while the Postal Service is required to consult with historical
organizations, they are not bound by these consultations or decisions.

The standard building design matrix served as the basis for determining earned space.
During the on-site visits, we inquired whether there were unique operations conducted
at the facility, such as bulk mail entry units or delivery bar code sorters, and allotted the
necessary space for those functions. Additionally, we applied the non-Flats Sequencing
System (FSS) rate of 123 SF per route to determine the earned delivery space, rather
than the post-FSS rate of 95 SF per route. Lastly, we did not consider performance
measures such as street efficiency indicator or alternate access sales in the earned
space calculation.

The Postal Service does not have a methodology of determining “build-out” costs at a
national, area, or district level. As such, to determine build-out cost we used the
average build-out costs for the area as presented in its node studies. We note that
build-out costs are negotiable and lessees, at times, absorb the cost of conversion. We
built in several different tolerances relating to the size of excess space at sites reviewed
and considered the marketability of properties within the district. Further, the multiple
4
    www.boma.org


                                              4
Facility Optimization: Great Lakes Area                                            DA-AR-11-005



actions, such as lease terminations, disposals, and space/lease reductions, within the
approved node studies were acknowledged and reflected in our monetary impact
calculations. We recognized realty market conditions and discounted our excess space
calculations by the national commercial vacancy rate of 14 percent. Therefore, we
consider our presentation of monetary impact as fair and conservative.

Finally, we recognize the efforts made to optimize Postal Service real estate and
management’s attention to properties greater than 10,000 SF. We believe that once
management modernizes its realty management systems to have greater visibility of
excess space, it will be able to better prioritize disposal actions associated with its full
building inventory.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, director,
Engineering and Facilities, or me at 703-248-2100.




Mark W. Duda
Deputy Assistant Inspector General
for Support Operations

Attachments

cc: Tom A. Samra
    Sharad C. Shrestha
    Lee A. Thompson
    Corporate Audit and Response Management




                                               5
Facility Optimization: Great Lakes Area                                            DA-AR-11-005



                               APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Great Lakes Area leases or owns 552 facilities with over 3.1 million interior SF to
move mail in the Greater Michigan District. The consolidation or closure of facilities is a
widely discussed topic due to declining mail volume and the resulting financial condition
of the Postal Service. In response, the Postal Service’s Facilities and Retail
Management organizations have implemented initiatives to optimize space, namely
initiation of the Facility Optimization Program and the Station and Branch Optimization
Consolidation (SBOC) program.

In April 2008, the vice president of Facilities initiated the Facility Optimization Program
to balance the portfolio of existing delivery facilities with the Postal Service’s current and
projected space needs. The program’s objectives are to generate revenue and reduce
rent obligations and operational costs. Specifically, the Great Lakes Facility Service
Office (FSO) works to identify excess space in facilities that would allow for
consolidation of delivery operations and movement of leased administrative functions
into owned space. A complete financial analysis is done to determine if a specific
consolidation provides for sufficient savings to make it worthwhile. The FSO works
closely with operations to identify labor, transportation, lease, maintenance and utility
costs or savings associated with potential consolidations. If the FSO identifies sufficient
savings, they present the case to operations to obtain both district and area approval.
The Great Lakes Area has completed two approved optimization studies in the Greater
Michigan District.

Established in May 2009, the SBOC program provides tools and strategies to evaluate
the effectiveness of Postal Service retail placement in support of the Transformation
Plan’s goals of improved service and increased revenue. As of October 22, 2010,
management was considering closing the Orchards Mall facility in the Greater Michigan
District.

In addition to the ongoing node studies5 and SBOC program, the district has been
working to optimize existing space. As of February 1, 2011, the Greater Michigan
District has 21 facilities that sell greeting cards in their retail lobby. There are three more
facilities slated to sell greeting cards in the near future.

In October 2010, the Postal Service consolidated optimization efforts to manage
excess space. The goal is to manage the excess space portfolio for all space types in
one overall optimization effort. This integrated effort between Facilities Headquarters
and the field offices will use computer modeling and equipment analysis along with
local analysis and metro planning to form headquarters and district/area partnerships.

To supplement and expand on existing Postal Service initiatives, the OIG developed a
Real Estate Risk Model (RERM) to identify and prioritize emerging facility risk.
5
    Studies of consolidation for sites within a geographic radius.


                                                              6
Facility Optimization: Great Lakes Area                                                                 DA-AR-11-005



The risk model measures facility performance results by district for the following nine
metrics:

                                   Table 1 – Risk Metrics
                                        RERM Metrics
    Ratio of Mail Volume to Interior SF          Excess USPS Identified Interior Space
    Ratio Revenue to Interior SF                 Excess Land
    Ratio of Total Expense to Interior SF        Facility Condition
    Ratio of Employees to Interior SF            Density, Geographic Location
    Ratio of Retail Revenue to Total Expense

We randomly selected 17 districts to study excess interior space on a national basis;
one district selected was in the Great Lakes Area.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify opportunities for the Postal Service’s Great Lakes Area to
optimize existing real estate. We visited 51 of 552 facilities in the Greater Michigan
District representing 37 percent of the OIG-calculated excess space when actual interior
space is compared to space standards. The scope of the audit primarily included main
post offices, carrier annexes, stations, branches, and mail processing facilities. To
accomplish our objective we visited selected facilities, conducted interviews, and
examined other relevant materials.

To calculate an earned6 facility size, we compared the workload data from Postal Service
databases7 to the number of carrier routes, the number of rented post office box sections,
and peak window use. We based the earned facility size on Postal Service criteria8 for
planning new space projects, which differs from existing Postal Service initiatives9
because it focuses on the total facility size, not specific retail or delivery operations. We
calculated excess space by taking the difference between earned facility size and actual
interior square footage reported in the electronic Facilities Management System (eFMS).
For the plants, the local in-plant support provided us the excess space data which we
assessed for reasonableness.

We conducted this performance audit from October 2010 to April 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
6
  We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
of Operations. In support of these new criteria, the headquarters Facility Group, Planning and Approval, designed
matrices to assist with the space requirements of planned facilities.
7
  WebBATS Monthly Summary Data for issued post office box information, Intelligent Mail and Address Quality
Delivery Statistics Summary for route information, and Retail Data Mart for earned peak modeled window staffing.
8
  Space Requirements Matrix for Non-Flat Sequencing System (FSS) offices.
9
  SBOC and Facilities Optimization programs.


                                                           7
    Facility Optimization: Great Lakes Area                                                      DA-AR-11-005



    our findings and conclusions based on our audit objective. We discussed our
    observations and conclusions with management officials on February 25, 2011, and
    included their comments where appropriate.

    We assessed the reliability of facility-related data by verifying the accuracy of
    computer-generated information through observations during facility tours and
    interviewing agency officials knowledgeable about the data. We determined that the
    data was sufficiently reliable for the purposes of this report.

    PRIOR AUDIT COVERAGE

    The following audit reports are relevant to the Postal Service’s facility infrastructure:

                      Report            Final Report          Monetary
 Report Title                                                                          Report Results
                      Number                Date               Impact
                                                                            The Government Accountability Office
                                                                            (GAO) identified a number of factors
The
                                                                            that impede the government’s ability to
Government
                                                                            efficiently dispose of unneeded
Faces
                                                                            property. These include competing
Challenges to      GAO-11-370T            2/10/2011             None
                                                                            stakeholder interests, complex legal
Disposing of
                                                                            environment, and, specific to the
Unneeded
                                                                            General Services Administration
Buildings
                                                                            (GSA), the lengthy disposal process.
                                                                            No recommendations were made.
Facility                                                                    The OIG identified 4.5 million SF of
Optimization:                                                               excess space. Management agreed
                   DA-AR-11-001               2/7/2011       $173,835,881
Western Area                                                                with the recommendations but
Districts                                                                   disagreed with the monetary impact.
Facility                                                                    The OIG identified 1.98 million SF of
Optimization:                                                               excess space. Management agreed
                   DA-AR-10-008           8/25/2010          $157,963,990
Northern New                                                                with the recommendations but
Jersey District                                                             disagreed with the monetary impact.
Facility                                                                    The OIG identified 740,529 SF of
Optimization:                                                               excess space. Management agreed
                   DA-AR-10-009           8/25/2010           $23,517,019
Chicago                                                                     with the recommendations but
District                                                                    disagreed with the monetary impact.
Facility                                                                    The OIG identified 2.4 million SF of
Optimization :                                                              excess space. Management agreed
                   DA-AR-10-010           8/25/2010          $446,258,222
New York                                                                    with the recommendations but
District                                                                    disagreed with monetary impact.
                                                                            The GAO added the Postal Service’s
Restructuring
                                                                            financial condition to the list of high-
the U.S. Postal
                                                                            risk areas needing Congress’
Service to
                                                                            attention and the executive branch to
Achieve            GAO-09-937SP               7/2009            None
                                                                            achieve broad-based transformation.
Sustainable
                                                                            It recognized the need to reduce the
Financial
                                                                            facility infrastructure. There was no
Viability
                                                                            Postal Service response in the report.




                                                         8
    Facility Optimization: Great Lakes Area                                                DA-AR-11-005



                      Report            Final Report       Monetary
 Report Title                                                                    Report Results
                      Number                Date            Impact
                                                                      Federal agencies have taken some
Federal Real                                                          positive steps to address real property
Property: An                                                          issues but some of the core problems
Update on          GAO-09-801T            7/15/2009         None      that led to designation of this area as
High-Risk                                                             high-risk continue to persist. There
Issues                                                                was no Postal Service response in the
                                                                      report.
                                                                      The Postal Service will require action
Network                                                               in a number of areas, such as
Rightsizing                                                           rightsizing its retail and mail
Needed to                                                             processing networks by consolidating
Help Keep          GAO-09-674T            5/20/2009         None      operations and closing unnecessary
USPS                                                                  facilities. The Postal Service generally
Financially                                                           agreed with the accuracy of the
Viable                                                                statements and provided technical
                                                                      comments, which were incorporated.




                                                       9
Facility Optimization: Great Lakes Area                                                                DA-AR-11-005



                                 APPENDIX B: DETAILED ANALYSIS

Excess Space is Significant in the Greater Michigan District

Based on facility space requirements, 10 we calculated that the Greater Michigan District
maintains over 700,000 SF more than what is required for current operational workload,
thus can be considered potential excess space. As depicted in Chart 1, excess space
was 26 percent of the total interior square footage.

                    Chart 1 – Area Interior and Excess Space Comparison




The breakdown of interior square footage and OIG-calculated excess for the 51 visited
facilities in the Greater Michigan District is represented in Table 2. Main post offices
contributed 47 percent of the excess space, while stations (13 percent), carrier annexes
(11 percent), and branches (12 percent) followed to a lesser degree.




10
 We used Postal Service criteria established in March 2007 outlined in a letter issued by the senior vice president of
Operations. In support of these new criteria, the Headquarters Facility Group, Planning and Approval, designed
matrices to assist with the space requirements of planned facilities.


                                                         10
      Facility Optimization: Great Lakes Area                                            DA-AR-11-005




                            Table 2 – Excess Space by Facility Type Visited
                                                                              OIG-       Interior
                                           Percentage      Percentage of
         Facility Type         Count                                       Calculated    Square
                                            of Count          Excess
                                                                            Excess       Footage
       Main Post Office              26         50.98%           46.83%        121,304      290,582
       Station                         6          11.76            12.77        33,089       89,689
       Carrier Annex                   3           5.88            11.23        29,092       50,092
       Branch                          5           9.80            11.86        30,725       89,125
       Plant                           8          15.69            14.87        38,520      845,806
       Finance Station                 3           5.88             2.43         6,289       17,289
       Total                         51         100.00%         100.00%        259,019    1,382,583

      To highlight excess space in the Greater Michigan District, Illustration 1 depicts two
      facilities with excess interior space. The Saginaw Mail Processing Annex is Postal
      Service-owned and has mail processing operations along with vacant space in the
      workroom. The East Paris Main Branch is another Postal Service-owned facility with
      delivery operations and retail operations, showing significant vacant space on the
      workroom floor. According to our calculations, 86 percent of the sites visited contained
      excess space, ranging from 200 SF to 22,832 SF.

                            Illustration 1 – Examples of Excess Space
Saginaw Mail Processing Annex                     East Paris Main Branch
1201 South Wheeler Street                         3970 South Greenbrooke Drive
Saginaw, Michigan 48602                           Grand Rapids, Michigan 49512
Interior Square Footage: 40,765                   Interior Square Footage: 26,615
OIG-Calculated Excess SF: 7,625                   OIG-Calculated Excess SF: 10,715




                                                          11
Facility Optimization: Great Lakes Area                                        DA-AR-11-005



Causes for Excess Interior Space

The opportunity to optimize excess interior space in the Greater Michigan District exists
because:

        Postal Service policy requires installation heads to report excess space, but does
        not provide the necessary guidance to effectively accomplish this task.

        Facility systems do not track metrics such as dates or space conditions to allow
        effective management of excess space.

Guidance Can Be Improved

A review of the facility database user guide shows it does not provide sufficient
guidance for identifying excess space using the workload-driven space requirements.
For example, the facility database space survey asks installation heads to objectively
answer “Do you have any vacant space in your facility that is in leasable condition and
has access that does not compromise the security of the operation?” without providing
further guidance or referencing space standards. While we identified excess space at
44 of the 51 Postal Service facilities we visited, none of the locations answered “yes” to
the vacant leasable space survey question. Further, our interviews revealed Operations’
employees were often unaware of the method used to identify excess space at their
facilities. As a result, we identified over 700,000 of excess square footage in the Greater
Michigan District.

Facility Systems Do Not Allow for Effective Management of Excess Space

The Postal Service is experiencing a considerable workload decline which has resulted
in significant excess space. However, the electronic system that manages facility space
does not collect or monitor metrics such as length of time space is underused or vacant
and the condition of excess space in order to efficiently prioritize disposal actions.

For comparison purposes, we benchmarked Postal Service facility practices against the
GSA realty management practices and found that GSA “ages” its available space for
tracking, monitoring, and decision-making. The Postal Service does not have the ability
to age excess space as it does not collect dates on entry.

GSA’s Public Buildings Service also manages its leased portfolio by focusing on four
primary areas: reducing vacancy, managing lease administration expenses, managing
customer requirements, and analyzing market trends. Similarly, GSA-owned facilities
are monitored and analyzed using performance metrics such as revenue, funds from
operations, operating costs, vacancy, net operating income, and return on equity. The
Postal Service’s facility management systems are not able to manage property in this
manner. For example, rents from leases or subleases are tracked manually using
electronic spreadsheets.




                                            12
   Facility Optimization: Great Lakes Area                                                              DA-AR-11-005



   Additionally, because the Postal Service’s eFMS calculates space based on delivery
   and retail metrics, the excess space reported for processing and distribution plants is
   inaccurate. Therefore, it is not a reliable source for identifying how much excess space
   is available in its plants. The Postal Service plans to measure plants and update the
   facility database. To complete this task, industrial engineers, working with local in-plant
   support, are using blueprints to identify processing equipment, staging areas, and
   manual work areas and identify excess space.

   We estimate if the Great Lakes Area initiated disposal actions for the districts reviewed,
   there is a potential opportunity to realize $19,977,519 over typical and remaining lease
   terms. This amount is considered funds that could be used more efficiently by
   implementing recommended actions. See Appendix C for the monetary impact
   calculation and assumptions.

   Opportunity to Fulfill Federal Space Needs

   The GSA is the nation's largest public real estate organization. It provides workspace for
   more than 1 million federal workers through its Public Buildings Service. According to
   the Code of Federal Regulations (CFR), in situations when GSA-controlled space is not
   available, federal agencies must extend priority consideration to available space in
   Postal Service buildings.11

   Our audit noted that the Postal Service can be more aggressive in seeking opportunities
   to fill the space needs of federal entities. Table 3 illustrates the potential fulfillment
   opportunities in the Greater Michigan District. Specifically, it shows the GSA leases on
   behalf of federal entities primarily from the commercial sector rather than the Postal
   Service. Space requirements were greater than the excess space identified in Postal
   Service facilities. The GSA paid considerably more per square foot than the value
   assigned to the Postal Service space.12

                      Table 3 – Postal Service Excess Space Lease Opportunity
                                                                  Existing
                                                                   GSA/                                   Number of GSA
                 GSA          USPS        GSA         USPS         Postal      GSA          USPS           Leases Excess
                Leased       Excess      Facility    Facility     Service     Average      Average           Space May
District          SF           SF        Count       Count        Leases      SF Cost      SF Value        Accommodate
Greater                                                                                                  88 of
Michigan        777,914      702,433       103         261           0         $24.11        $8.57        103      85%

   Table 3 and Appendix D also illustrate the strong correlation between space
   leased by the GSA and the ability of the Postal Service to significantly
   accommodate federal space needs. For the Greater Michigan District, we
   estimate that Postal Service excess space may accommodate 88 of 103 (or
   85 percent) of current federal leases. However, we understand that more


   11
        Title 41 CFR 102-73.20.
   12
        We assigned Postal Service excess space a value based on historical lease rates in the same geographic areas.


                                                             13
Facility Optimization: Great Lakes Area                                   DA-AR-11-005



information is necessary to determine whether the Postal Service’s excess space
would be suitable.




                                          14
                  Facility Optimization: Great Lakes Area                                                                                  DA-AR-11-005



                                                                         APPENDIX C: MONETARY IMPACT

                                                                               Funds Put to Better Use

Project year                                         0              1             2             3           4            5            6             7             8          9
Fiscal year                                       2012           2013          2014         2015         2016         2017         2018          2019          2020       2021


Owned**
Sublease Value                            ($23,293,605)     $4,853,542    $4,853,542   $4,853,542   $4,853,542   $4,853,542   $4,853,542    $4,853,542    $1,213,386
Utility Savings                                             $1,325,238    $1,355,718   $1,386,900   $1,418,799   $1,451,431   $1,484,814    $1,518,965     $388,475
Custodial Savings                                           $1,220,465    $1,220,465   $1,220,465   $1,220,465   $1,220,465   $1,220,465    $1,220,465     $305,116


Leases Expiring FY 2011***
Sublease Value                             ($1,275,647)      $265,799      $265,799     $265,799     $265,799     $265,799
Utility Savings                                               $72,575       $74,244      $75,952      $77,699      $79,486
Custodial Savings                                             $66,837       $66,837      $66,837      $66,837      $66,837


Leases Expiring After 10/1/2011
Sublease Value                             ($4,321,817)      $900,510      $649,058     $412,680     $134,189     $115,986     $106,542       $82,066       $82,066     $71,911
Utility Savings                                              $245,880      $181,298     $117,923      $39,226      $34,685      $32,594       $25,683       $26,274     $23,552
Custodial Savings                                            $226,441      $163,211     $103,772      $33,743      $29,166      $26,791       $20,636       $20,636     $18,083


Subtotal                                  ($28,891,069)     $9,177,287    $8,830,173   $8,503,870   $8,110,299   $8,117,397   $7,724,748    $7,721,358    $2,035,954   $113,546

Cash Flows at Sub Lease                   ($25,048,557)     $7,956,708    $7,655,760   $7,372,855   $7,031,629   $7,037,784   $6,697,357    $6,694,417    $1,765,172    $98,444
Efficiency Rate


Discounted at Postal Service              ($25,048,557)     $7,659,887    $7,095,226   $6,578,132   $6,039,651   $5,819,434   $5,331,350    $5,130,215    $1,302,263    $69,918
Cost of Borrowing

Net Present Value                          $19,977,519




                                                                                           15
Facility Optimization: Great Lakes Area                                                                 DA-AR-11-005



                                Table 4 – Greater Michigan Cost Factors

                                                                    Custodial
          Build-out cost/square feet               $41.13                                               $4.31
                                                                    rate/square feet
          Lease Savings/square                                      USPS Cost of
                                                    $8.57                                              3.875%
          feet/yr                                                   Borrowing
          Utilities Savings/square                                  Sub-lease
                                                    $2.34                                              86.70%
          feet/yr, FY 2010                                          Efficiency Rate
          Utility Cost Escalation
                                                    2.30%
          Rate

Value Assigned to the Excess Space

Table 4 shows the value per square foot for the Greater Michigan District. Using the
Facility Inventory Reports from the eFMS, we calculated this amount by dividing total
interior square footage by total lease costs.

Utility Costs Associated with the Excess Space

Table 4 shows the utility cost per square foot for the Greater Michigan District. Using
information from line 42 of the Financial Performance Report (FPR), we calculated this
amount by dividing the total annual utility expenses by the district’s total interior square
footage, with a cost escalation rate of 2.3 percent.

Maintenance Costs Associated with the Excess Space

Table 4 shows the maintenance cost per square foot for the Greater Michigan District.
We calculated this cost by dividing the total annual maintenance expenses13 by the
district’s total interior square footage. However, we reduced the cost by 50 percent,
based on previously identified savings in a prior custodial maintenance audit.14

Build-Out Costs Associated with Implementing Optimization Actions

Table 4 shows the build-out cost per square foot for the Greater Michigan District. We
calculated this amount by dividing the “build-out/Line 63 capital” costs for all approved
optimization node studies in the Great Lakes Area by the total reduction in square
footage identified in the approved node studies.




13
     eFlash (Labor Distribution Code 38, salary and benefits) + FPR Line 3F Contract Cleaners Costs.
14
     Custodial Maintenance (Report Number DA-AR-09-011, dated August 13, 2009).

                                                          16
Facility Optimization: Great Lakes Area                                     DA-AR-11-005




Ownership of Facility and Term Years

We categorized all facilities in the district by ownership – leased versus Postal
Service-owned. We further grouped the leased properties by the number of term years
remaining on the lease.

We calculated leases expiring before the end of FY 2011 based on the assumption that
these lease would be renewed for the standard 5-year period. We calculated leases
expiring after October 1, 2011 for the remaining lease term. We calculated Postal
Service-owned facilities over a period of 7.3 years, which was the historical national
average lease term.

Sublease Efficiency Rate

We identified the national commercial property vacancy rate from the National Realty
Association for industrial and retail space as 13.3 percent, so we reduced the net
present value savings realization to an 86.7 percent “success rate.”




                                          17
Facility Optimization: Great Lakes Area                        DA-AR-11-005



               APPENDIX D: GSA-LEASED PROPERTIES COMPARED TO
                        POSTAL SERVICE EXCESS SPACE

Greater Michigan District




                                          18
Facility Optimization: Great Lakes Area                                     DA-AR-11-005




The pie chart illustrates the ratio of Postal Service excess space to GSA-leased
commercial space. The table below provides additional analysis by placing the real
estate into size categories to further assess supply versus demand.




                                            GSA           OIG
                          Building Size
                                           Leased      Identified
                              (SF)
                                          Facilities    Excess
                                1,000        14           143
                                5,000        38           82
                               10,000        31           20
                               20,000        13           12
                               30,000         2            2
                               40,000         3            1
                               50,000         0            0
                                More          2            1
                           Total Count       103          261




                                             19
Facility Optimization: Great Lakes Area                      DA-AR-11-005



                         APPENDIX E: MANAGEMENT’S COMMENTS




                                          20
Facility Optimization: Great Lakes Area        DA-AR-11-005




                                          21
Facility Optimization: Great Lakes Area        DA-AR-11-005




                                          22
Facility Optimization: Great Lakes Area        DA-AR-11-005




                                          23
Facility Optimization: Great Lakes Area        DA-AR-11-005




                                          24
